    o
                                            -
                             CLOSEOUT FOR M95030009
          This case came to OIG on February 21, 1995.
              , a program officer in the Division of ,

                                wat
                 that she had received a telephone call from
          f the Department of
     (the complainant), who rep r
     complainant stated that Drs. -(Subject - -
    v (Subject #2) of the
                                                      -
                                                            -
                                      a suspected intellectual theft and
    violation of the integrity of confidential peer review.

     subjects) had published an article1 that was extraordinarily
                                                                  -
                                                          #1) and &
                                                                     The
                                                                    (the
     similar to a proposal that the complainant and two collaborators
    had submitted to NSF.~ The complainant expressed concern that NSF
    had supplied one of the subjects with his proposal for confidential
    merit review and that the subjects had misappropriated the ideas in
     it.
         OIG determined that neither subject reviewed the proposal and,
    furthermore, that no one from the subjectsr university reviewed the
    proposal.    In addition, none of the senior subject's recent
    collaborators (as listed on his latest NSF proposal) reviewed the
    proposal at issue.
         OIG consulted two knowledgeable scientists, both of whom
    examined the proposal, the article, and the complainant's letter to




    -
    OIG. Both concluded that, although there were similarities between
    the proposal and the article, these similarities in no way
    suggested that the article was derived from the proposal. Both
    scientists stated that the subjects and the complainant were
    pursuing a familiar analytic strategy in their area of research and
    that it was not surprising that they would develop similar
    equations and related lines of argument.
         OIG concluded that there was no evidence of intellectual theft

I          he article is entitled
                      .I1   It was publis

         ''The   proposal was                    entitled   m


                                   page 1 of 2                   M95-09
or violation of the integrity of the confidential merit review
process. This inquiry is closed and no further action will be
taken on this case.




                         page 2 of 2
